First International Bank & Trust
Account Opening Disclosure
FIBT X (B) Visa Account
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

16.49%
This APR will vary with the market based on the Prime Rate.

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial
Protection Bureau

2.90% introductory rate for the first 6 months.
After that, your APR will be 16.49%. This APR will vary with the market based on the Prime Rate.
19.49%
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on purchases and balance transfers if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances on the transaction date.
If you are charged interest, the charge will be no less than $1.
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95.00

Transaction Fees
• Balance Transfer

Either $5 or 3% of the amount of the balance transfer, whichever is greater.

Balance Transfers
APR for Cash Advances
Paying Interest

•

Cash Advance

Either $5 or 3% of the amount of each cash advance, whichever is greater.

•

Foreign Transaction

Up to 1% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
•

Returned Payment

Up to $35
$25

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including current transactions)”. Please see the
Billing Rights document for more information.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the Billing Rights document.
Other: Additional fees may apply for special services requested by the cardholder.
ADDITIONAL FEES / SERVICES:
➢ Special Posting Fee: $10.00
➢ Express Order Fee: $35.00
➢ Research Fee: $15.00/hour plus $.25/copy
➢ Replacement Card Fee: $10.00 for each lost or damaged card
➢
Inactive Accounts: Due to the cost of maintaining this account, your account may be closed if inactive for more than 22 months.
As a participant in the consumer reporting system, we furnish information about our experience with you to consumer reporting agencies.
These consumer reports allow us to make credit and other opportunities available to you. If you believe that we have furnished information
to a consumer reporting agency that is inaccurate, please notify us at the following address and identify the specific information that is
inaccurate. The information about the cost of the card described in this supplement was printed on 08/25/2020 and is accurate as of that
date. The information is subject to change after that date and you should call us at 1-888-848-3428 or write to us at First International
Bank & Trust – 1601 N 12th St, Bismarck, ND 58501 for the current information. MEMBER FDIC.
PLEASE REFER TO THE BILLING RIGHTS DOCUMENT FOR ADDITIONAL INFORMATION.
3028206 – Updated 08/25/2020

